               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00932-200


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

 James J. Peters VA Medical Center 

         Bronx, New York 





July 2, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                             CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       IT         information technology
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                     CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              22

  F. Report Distribution .............................................................................................            23

  G. Endnotes ...........................................................................................................         24





VA OIG Office of Healthcare Inspections
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of May 5, 2014, at the Yonkers
CBOC, Yonkers, NY, which is under the oversight of the James J. Peters VA Medical
Center and Veterans Integrated Service Network 3.

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	   Review of the hazardous materials inventory occurs twice within a 12-month period
     at the Yonkers CBOC.

	   The information technology (IT) server closet at the Yonkers CBOC is maintained
     according to IT safety and security standards.

	   Only IT and other official telephone and electrical equipment are stored in the
     Yonkers CBOC IT server closet.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently complete diagnostic assessments for patients with a positive
     alcohol screen.

	   Staff document a plan to monitor the alcohol use of patients who decline referral to
     specialty care.

	   Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Consistently provide        written   medication    information     that   includes    the
     fluoroquinolone.

	   Provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                       i
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–21, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                                 CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                                CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                      CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the Yonkers CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
 X     The CBOC maintains a written, current             The CBOC’s inventory of hazardous materials at
       inventory of hazardous materials and waste        the Yonkers CBOC was not reviewed for
       that it uses, stores, or generates.               accuracy twice within the prior 12 months.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                                 3
                                      CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


NM              Areas Reviewed (continued)                                   Findings
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
 X     The IT network room/server closet is locked.        Access to the IT network room/server closet
                                                            at the Yonkers CBOC was not:
                                                            o Restricted to personnel authorized by the
                                                                Office of Information and Technology.
                                                            o Documented.

                                                           The IT network/server closet at the Yonkers
                                                            CBOC contained storage of non-authorized
                                                            supplies.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                                   4
                                      CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


Recommendations

1. We recommended that processes are improved to ensure review of the hazardous
materials inventory occurs twice within a 12-month period at the Yonkers CBOC.

2. We recommended that the information technology server closet at the Yonkers CBOC is
maintained according to information technology safety and security standards.

3. We recommended that processes are improved to ensure that only information technology
and other official telephone and electrical equipment are stored in the Yonkers CBOC
information technology server closet.




VA OIG Office of Healthcare Inspections                                                                 5
                                      CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 22 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 3 of 22 patients who had positive alcohol use
                                                          screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
 X     For patients with AUD who decline referral to      CBOC/PCC staff did not monitor the alcohol use
       specialty care, CBOC/PCC staff monitored           of any of the three patients who declined referral
       them and their alcohol use.                        to specialty care.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 5 of 11 RN Care Managers did
       received motivational interviewing training        not receive motivational interviewing training
       within 12 months of appointment to PACT.           within 12 months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 2 of 11 RN Care Managers did
       received VHA National Center for Health            not receive health coaching training (most likely
       Promotion and Disease Prevention-approved          TEACH for Success) within 12 months of
       health coaching training (most likely TEACH        appointment to PACT.
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

4. We recommended that CBOC/PCC staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                        6
                                      CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


5. We recommended that CBOC/PCC staff document a plan to monitor the alcohol use of
patients who decline referral to specialty care.

6. We recommended that CBOC/PCC Registered Nurse Care Managers receive motivational
interviewing and health coaching training within 12 months of appointment to Patient Aligned
Care Teams.




VA OIG Office of Healthcare Inspections                                                                 7
                                      CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 37 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 28 (76 percent) of 37 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We     did    not    find   documentation     that
       medications was provided at the end of the        33 (89 percent) of 37 patients received written
       outpatient encounter.                             information that included the fluoroquinolone.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   28 (76 percent) of 37 patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendations

7. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

8. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

9.   We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                                   8
                                      CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                 9
                                                                             CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY
                                                                                                                                     Appendix A


                                                                       CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                          Uniques4                                  Encounters4

                                    Station                   CBOC
        Location          State                Locality5                    MH7        PC8       Other9       All       MH7         PC8      Other9       All
                                       #                       Size6
    White Plains          NY       526GA       Urban       Mid-Size           319      1,572         189     1,623      1,534      2,700      1,004      5,238
    Yonkers               NY       526GB       Urban       Small              243        982         127     1,031      1,666      2,219        246      4,131
    Queens                NY       526GD       Urban       Small                4        452          54       454         10      1,306         65      1,381




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                         10
                                CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                              Tele-Health
           CBOC                                               Ancillary Services12
                                     Services11                                                Services13
    White Plains                         ---                       Pharmacy                         ---
    Yonkers                               ---                          ---                          ---
    Queens                                ---                          ---                          ---
 




10
   Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
   Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
   Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 


VA OIG Office of Healthcare Inspections                                                                          11
                                                                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY
                                                                                                                                    Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.
VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                             CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.

VA OIG Office of Healthcare Inspections                                                                                                                     13
                                                                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  14
                                                                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                    15
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       June 5, 2014

          From:        Director, VA NY/NJ Veterans Healthcare Network (10N03)

       Subject:        CBOC and PCC Reviews of the James J. Peters VA
                       Medical Center, Bronx, NY

             To:       Director, Baltimore Office of Healthcare Inspections (54BA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed the recommendations of the draft report of the CBOC
       and PCC review at the James J. Peters VA Medical Center conducted by
       the OIG team during the week of May 5, 2014 at the Yonkers CBOC,
       Yonkers NY.

       2. I concur with the nine recommendations for improvements sought forth
       in the report.

       3. Should you have any questions, please contact our Pamela Wright
       VISN QMO at 718-741-4143.




       Michael A. Sabo, FACHE

       Network Director




VA OIG Office of Healthcare Inspections                                                      16
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       June 5, 2014

          From:        Director, James J. Peters VA Medical Center (526/00)

       Subject:        CBOC and PCC Reviews of the James J. Peters VA
                       Medical Center, Bronx, NY

             To:       Director, VA NY/NJ Veterans Healthcare Network (10N03)

       1. We have reviewed the recommendations in the draft report of the
       CBOC and PCC review of the James J. Peters VA Medical Center,
       conducted by the OIG team during the week of May 5, 2014 at the
       Yonkers CBOC, Yonkers NY.

       2. We concur with the nine recommendations for improvements sought
       forth in the report.

       3. Should you have any questions, please contact our Quality Manager at
       Ext. 5264.




       Erik Langhoff, MD

       Medical Center Director




VA OIG Office of Healthcare Inspections                                                      17
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes are improved to ensure review
of the hazardous materials inventory occurs twice within a 12-month period at the
Yonkers CBOC.

Concur

Target date for completion: 12/1/14

Facility response: James J. Peters has revised the hazardous material policy which
includes the Industrial Hygienist reviewing the inventory and the SDS’s semiannually.
Once policy is finalized the policy will be shared with staff. The Charge Nurses and
Housekeepers will review the MSDS every 6 months and document signature in the
cover sheet of the MSDS book. Inventory was conducted on 5/22/14. Results will be
reported to the EOC committee.

Recommendation 2. We recommended that the information technology server closet
at the Yonkers CBOC is maintained according to information technology safety and
security standards.

Concur

Target date for completion: 9/1/14

Facility response: Clinic master keys, has been reduced to one key for life safety reason
so they can access electrical components in same closet. The Charge Nurse at the
CBOC will be the only individual guarding and securing the key to the electrical closet.
The closet will be part of the biannual EOC rounds at each CBOC.

Recommendation 3. We recommended that processes are improved to ensure that
only information technology and other official telephone and electrical equipment are
stored in the Yonkers CBOC information technology server closet.

Concur

Target date for completion: 9/1/14

Facility response: Yonkers staff has already removed all extraneous items from the IT
server closet. Primary Care Clinical Nurse Manager has instructed Yonkers staff to not
use the IT closet for general storage purposes. This will be part of the bi-annual EOC
rounds.


VA OIG Office of Healthcare Inspections                                                      18
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


Recommendation 4. We recommended that CBOC/PCC staff consistently complete
diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: 12/31/14

Facility response: Primary Care providers have been instructed at the Primary Care
staff meeting (6/5/14) to refer all positive AUD screens to Primary Care Mental Health
Integration (PCMHI) by placing a consult. PCMHI will conduct diagnostic assessment
and address need for follow up and intervention by enrolling the Veteran in Care
Management.       PC Performance Manager will audit all positive AUD screens
assessment weekly for a period of 6 months and quarterly thereafter to ensure
compliance.

Recommendation 5. We recommended that CBOC/PCC staff document a plan to
monitor the alcohol use of patients who decline referral to specialty care.

Concur

Target date for completion: 8/31/14

Facility response: The expectation is that brief alcohol intervention by the PACT team
staff is to be offered at the time of their visit, followed by an offer to refer them to
specialty MH (i.e., to our SAS clinic). If patient accepts the referral, the PACT team will
enter a SAS consult or direct them to the SAS walk-in clinic for a possible same day
visit with SAS. If the patient declines the specialty MH referral (which pertains to the
OIG recommendation), the PACT team staff is encouraged to use a motivational
interviewing approach to counsel patients about their alcohol use, as it is an empirically
supported approach to addressing patient ambivalence and reluctance. If the patient
continues to decline, then a referral to the Primary Care Mental Health Integration
(PCMHI) program is recommended which may consist of telephone follow up under
PCMHI care management and/or in-person mental health counseling for alcohol use
within the PCMHI program (if patient opts for this over specialty MH). The goal of
mental health counseling would be to engage the patient and continue to address his
alcohol use until he may be more open to being referred for specialty MH.

Recommendation 6. We recommended that CBOC/PCC Registered Nurse Care
Managers receive motivational interviewing and health coaching training within 12
months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: 8/31/14

Facility response: James J. Peters Health Behavior Coordinator will offer MI training for
the two CBOC/Primary Care Clinic RN Care Managers in August 2014. All current
CBOC/Primary Care Clinic RN Care Managers who have not yet been trained are


VA OIG Office of Healthcare Inspections                                                      19
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


expected to attend this training, as well as all new PACT team members that are
expected to come on board between now and the time of the August training. Following
that, additional MI training sessions will be offered as needed to ensure compliance with
the recommendation for CBOC/Primary Care Registered Nurse Care Managers
receiving MI training within 12 months of appointment to Patient Aligned Care Teams.
All MI trainings from here on will be able to be tracked by TMS.

Health Coaching Training (TEACH) will be provided in August 2014 to the two PC RN
care managers identified during the survey. Following the August training, Health
coaching follow up training will be held on a monthly basis for all CBOC/Primary Care
RN care managers. Training will be tracked in TMS.

Recommendation 7.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: 12/31/14

Facility response: Primary Care Chief will re-enforce the use outpatient medication
reconciliation documentation process with aim to improve this process. The Primary
Care Performance manager will monitor compliance in the utilization of the clinical
reminder weekly.

Recommendation 8.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: 07/15/14

Facility response: Written medication instructions provided on prescription label and
additional handout provided with every prescription order. FDA tear sheets/med guides
are provided with every appropriate prescription orders during pick-up or mailed
medication.

Recommendation 9.           We recommended                that   staff   provide    medication
counseling/education as required.

Concur

Target date for completion: 09/15/14

Facility response: PACT Pharmacy team has in-serviced PC clinical staff about
fluoroquinolones in May 2014. They will provide initial counseling and education to
patients and if further medication counseling/education is needed/requested a
pharmacist will be available as requested via telephone call to main pharmacy.


VA OIG Office of Healthcare Inspections                                                      20
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY


Outpatient medication reconciliation clinic reminder was modified to include patient
counseling/education.




VA OIG Office of Healthcare Inspections                                                      21
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Jennifer Christensen, DPM, Team Leader
Contributors            Terri Julian, PhD
Other                   Margie Chapin, RT (R, MRI, CT), JD
Contributors            Lin Clegg, PhD
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Melanie Oppat, MEd, LDN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Sonia Whig, MS, LDN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      22
                            CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Director, VA NY/NJ Veterans Healthcare Network (10N03)
Director, James J. Peters VA Medical Center (526/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Eliot L. Engel, Charles B. Rangel, Jose E. Serrano


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      23
                                  CBOC and PCC Reviews at James J. Peters VA Medical Center, Bronx, NY
                                                                                          Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    24
